AUDIT OF THE NORTHEAST SERVICE CENTER’S
         SUBSIDIARIES INVENTORY

            Audit Report No. 00-003
                March 13, 2000




           OFFICE OF AUDITS

     OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation
1201 W. Peachtree St., NE, Suite 1800                                                                      Office of Audits
Atlanta, Georgia 30309                                                                         Office of Inspector General



   DATE:           March 13, 2000

   TO:             Jon R. Karlson, Regional Director
                   Division of Resolutions and Receiverships
                   Northeast Service Center




   FROM:           Carl S. Mays
                   Regional Director

   SUBJECT: Audit of the Northeast Service Center’s Subsidiaries Inventory (Audit Report
            No. 00-003)

   This report presents the results of the Office of Inspector General’s (OIG) audit of the Northeast
   Service Center’s (NESC) subsidiaries inventory. The audit addressed whether the NESC
   accounted for all subsidiaries owned by failed institutions in its geographic area of responsibility.
   The NESC’s subsidiaries inventory consisted of subsidiaries of failed institutions as well as
   partnerships and joint ventures in which those subsidiaries had an ownership interest. We did not
   consider partnerships and joint ventures owned directly by the failed institutions to be part of the
   NESC’s subsidiaries inventory.

   We performed the audit because the NESC’s workload was scheduled to be transferred to the
   Dallas Office by June 30, 2000, which compounded the need for an accurate subsidiaries
   inventory because of the institutional knowledge loss when the NESC closes. A system of record
   should include all items that it is designed to track. A complete inventory of subsidiaries is
   needed to ensure the proper management and disposition of each subsidiary, which includes
   identifying the status of each subsidiary, performing asset searches to identify all assets owned,
                                                 1
   identifying management goals, upstreaming discovered assets, and preparing annual and final tax
   returns, among other things.


   BACKGROUND
                                                                                                                      2
   The Federal Deposit Insurance Corporation (FDIC) and the Resolution Trust Corporation (RTC)
   assumed control of the management and disposition of the assets of failed financial institutions. In
   many cases, those failed financial institutions owned subsidiaries that provided diverse business

   1
    Upstreaming is used to describe the posting of assets belonging to a dissolved subsidiary to the books of the
   subsidiary’s parent failed financial institution receivership.
   2
    As provided in the RTC Completion Act of 1993, the RTC went out of existence on December 31, 1995, and the FDIC
   took over its functions on January 1, 1996.
services such as mortgage lending and servicing, real-estate development and sales, insurance,
credit cards, travel, and security sales and underwriting. Subsidiaries maintained their financial
records separately from the parent institutions financial records, and financial institutions recorded
the subsidiaries in their financial statements as investments. Accordingly, subsidiaries’ assets did
not appear on the parent institutions’ financial records. Subsidiaries’ assets included not only
assets owned directly by subsidiaries—such as real estate, cash, stocks, bonds, and mortgages—
but also ownership in partnerships and joint ventures.

Subsidiaries were usually incorporated in states where they conducted business and were required
to file annual reports showing business activity and pay annual incorporation fees as long as they
existed as ongoing entities. Requirements for dissolution varied from state to state. Typically, if
a subsidiary did not file an annual report or pay required fees, the cognizant state could
involuntarily dissolve the subsidiary until reporting requirements were met. When a subsidiary
ceased business activity, it could file a formal request for dissolution with the state where it was
incorporated. Some states require subsidiaries to dispose of all assets and liabilities and have
zeroed balance sheets before dissolution, while other states do not have those requirements.

The RTC maintained its inventory of subsidiaries on the Subsidiary Information Management
Network (SIMAN), which became the FDIC’s system of record for subsidiaries when the FDIC
and RTC merged. Before the merger, the FDIC did not maintain a separate system of record for
subsidiaries.

The FDIC closed its offices at South Brunswick, New Jersey; Westborough, Massachusetts; and
Franklin, Massachusetts; and the RTC closed its office at Valley Forge, Pennsylvania. In addition
to their own staff, those offices hired contractors to manage and sell subsidiaries. The NESC
assumed responsibility for managing the remaining assets, including subsidiaries, from those
offices. During our audit, the NESC completed an effort called the “SIMAN Project” to establish
the universe of all FDIC subsidiaries for its geographic area of responsibility. The NESC added
302 subsidiaries to the SIMAN system because of that project.


OBJECTIVE, SCOPE, AND METHODOLOGY

The audit objective was to determine whether the NESC had a complete inventory of subsidiaries
belonging to failed financial institution receiverships in its geographic area of responsibility. To
accomplish the objective, we interviewed personnel from the NESC’s Subsidiary Department; the
Legal Division; and the Division of Finance (DOF), Dallas Field Finance Center. We reviewed the
Division of Resolutions and Receiverships’ (DRR) records from the consolidations of the FDIC
offices at South Brunswick, New Jersey; Westborough, Massachusetts; and Franklin,
Massachusetts; and the merger of the RTC office at Valley Forge, Pennsylvania, into the NESC.
We also reviewed subsidiaries’ records from FDIC and RTC contractors.

We determined that DRR, DOF, and the Legal Division maintained their own inventories of
subsidiaries to meet their individual needs. Table 1 shows the purpose of each division’s
inventory and the number of subsidiaries under the NESC’s jurisdiction on each inventory.



                                                  2
Table 1: NESC Subsidiaries Inventory Lists
     Maintained                            Number of
        By               As of Date       Subsidiaries                    Purpose of Inventory
    DRR                   02/25/99            1,636           Management/dissolution of subsidiaries
                                                      a
    DOF                   04/30/94              940           Financials/tax returns for subsidiaries
    Legal Division        04/20/99              878           Litigation involving subsidiaries/dissolution
a
 DOF’s inventory contained 1,015 subsidiaries; however, we eliminated 75 subsidiaries that were either duplicates
or dissolved prior to the parent institutions’ failure dates.

Source: OIG analysis of DRR’s, DOF’s, and the Legal Division’s subsidiaries inventories.



We merged the three inventories to obtain a consolidated list of 2,294 unduplicated subsidiaries
that became the basis for our analysis. To verify information contained in the DRR, DOF, and
Legal Division inventories, we reviewed the closing books of failed FDIC and RTC institutions.
We reviewed records related to subsidiaries for 21 of the 157 FDIC institutions and 37 of the
97 RTC institutions under the NESC’s jurisdiction. Lists of the FDIC and RTC institutions we
reviewed were provided to your staff on September 2, 1999. We judgmentally selected those
58 financial institutions based on the number and size of subsidiaries listed for each institution and
the location of the majority of each institution’s records. Because the closing books did not
always provide a complete inventory of the failed institutions’ subsidiaries, we searched the
FDIC’s Records Management Asset Tracking System for each failed financial institution in our
sample to identify additional subsidiaries. From that search, we obtained and reviewed dozens of
boxes of failed institution and corporate records stored at Iron Mountain and Pierce Leahy
records storage facilities. Specifically, we reviewed records dated before or near each
institution’s failure date to determine which subsidiaries were active at the time each financial
institution failed.

To identify assets of subsidiaries that were not in SIMAN, we recorded assets or business
activities that we found during our review of subsidiaries’ records. We also used the assets library
                                                      3
and corporate information files from LEXIS/NEXIS and various Internet databases to research
the ownership of real estate and incorporation status of various subsidiaries. We obtained state
incorporation status reports for 293 of the 429 subsidiaries (363 corporations plus
66 partnerships) identified by our review, which were not included in SIMAN. A search of the
LEXIS/NEXIS system verified by name and state only 293 of the 363 subsidiaries that were
               4
corporations. The 66 partnerships identified as subsidiaries were not incorporated and, therefore,
not required to submit annual filings to the states. Accordingly, we did not research those
partnerships through LEXIS/NEXIS.


3
 LEXIS is a full text legal services database that includes federal and state statutory, regulatory, and case law
materials. NEXIS includes a large number of national and local business journals, wire services, and newspapers,
including extensive back files, NAARS (a tax accounting database), and public record databases.
4
    We did not verify the information provided by LEXIS/NEXIS to state records.


                                                          3
We also searched the unclaimed property databases on the Internet for the states of Florida, New
York, and Rhode Island to identify any unclaimed assets belonging to subsidiaries. In addition,
we visited county and city offices in Massachusetts to verify the disposition or other resolution of
identified assets.

We did not evaluate the NESC’s system of internal controls over its subsidiaries inventory
because the OIG concluded that the audit objective could be met more efficiently by conducting
substantive tests rather than placing reliance on the internal control system. The OIG conducted
the audit from December 1998 to August 1999 in accordance with generally accepted government
auditing standards.


RESULTS OF AUDIT

The NESC did not have a complete inventory of all FDIC subsidiaries for its geographic area of
responsibility. Specifically, the OIG and NESC identified 731 subsidiaries after we commenced
the audit, which were not included in SIMAN, the FDIC’s system of record for subsidiaries. A
system of record should include all items that it is designed to track. A complete inventory of
subsidiaries is needed to ensure the proper management and disposition of each subsidiary, which
includes identifying the status of each subsidiary, performing asset searches to identify all assets
                                                      5
owned, identifying management goals, upstreaming discovered assets, and preparing annual and
final tax returns, among other things. Furthermore, we could not determine whether the NESC
always performed asset searches before dissolving subsidiaries. We believe that, in addition to
maintaining a complete subsidiaries inventory, the NESC should also perform searches for
subsidiaries’ assets because the FDIC does not record individual assets of subsidiaries in
receivership books. With our limited asset search, we identified assets belonging to dissolved,
sold, and active subsidiaries that were not accounted for in subsidiary books or upstreamed to the
receivership.


NESC’s Subsidiaries Inventory Was Not Complete
                                                                           6
The NESC’s inventory of FDIC subsidiaries was not complete. Specifically, after we
commenced our audit, 731 additional subsidiaries were identified that were not included in
SIMAN. Of the 731 additional subsidiaries, the NESC identified and added 302 subsidiaries to
SIMAN as part of an effort called the SIMAN Project that was completed during our audit.
NESC officials also identified 160 other subsidiaries but did not add them to SIMAN because they
could not locate necessary information such as tax identification numbers. However, we located
much of the required data needed to add the 160 additional subsidiaries to SIMAN, which we
provided to the NESC on April 29, 1999.


5
 Upstreaming is used to describe the posting of assets belonging to a dissolved subsidiary to the books of the
subsidiary’s parent failed financial institution receivership.
6
We found no discrepancies relating to the inventory of RTC subsidiaries included in SIMAN.


                                                          4
We identified the remaining 269 subsidiaries through our comparison of DRR’s, DOF’s, and the
Legal Division’s subsidiaries inventories and our review of the closing records of
21 FDIC-established financial institution receiverships. Of the 269 subsidiaries, 218 were
included on DOF’s and/or the Legal Division’s subsidiaries inventories. We identified the
remaining 51 subsidiaries during our review of the closing records of the 21 FDIC-established
financial institution receiverships. The majority of the 51 subsidiaries that we identified were
involved in the businesses of real estate and other investments.

As shown in table 1, there were 1,636 NESC-managed subsidiaries in SIMAN as of February 25,
1999, and the 302 subsidiaries that the NESC added from the SIMAN Project brought the total to
1,938. The 429 (160 identified by the NESC and 269 identified by our audit) subsidiaries
discussed in this report that were not included in SIMAN brings the total NESC-managed
subsidiaries to 2,367. Accordingly, when our audit began, 31 percent (731 of 2,367) of the
NESC-managed subsidiaries were not included in SIMAN—the FDIC’s system of record for
subsidiaries. The NESC’s SIMAN Project reduced the NESC-managed subsidiaries not included
in SIMAN to 18 percent (429 of 2,367).


Evidence of Asset Searches Not Available

Although NESC officials reported adding 302 subsidiaries to SIMAN, we could not determine
whether asset searches were performed for those subsidiaries. Without adequate asset searches,
subsidiaries’ assets may not be identified and properly managed and liquidated. NESC officials
stated that asset searches were not always needed because account officers would only dissolve
subsidiaries that have no assets. They also stated that some states require subsidiaries to have
zeroed balance sheets before obtaining a certificate of dissolution. Although NESC officials cited
state laws requiring zeroed balance sheets before subsidiaries can be dissolved, many states do not
have such a requirement. Specifically, five of seven Northeast States that we tested did not have
that requirement.

LEXIS/NEXIS incorporation information was only available on 293 of the 429 subsidiaries not
included in SIMAN. Our analysis of that information for the 293 subsidiaries showed that
38 were active, 34 were merged with other entities, 159 were voluntarily dissolved by the NESC
or its contractors, and the remaining 62 were involuntarily dissolved by the cognizant states. We
also could not determine whether asset searches were performed on the 429 subsidiaries not
included in SIMAN. Other FDIC offices and/or contractors previously managed the majority of
the 731 subsidiaries that were not in SIMAN at the time our audit began. Accordingly, without
evidence that asset searches were performed, the NESC cannot be assured that all subsidiary
assets were identified, whether from resolved or unresolved subsidiaries.

The results of our audit showed the importance of performing asset searches. For example, we
identified assets belonging to subsidiaries dissolved or sold before the parent institutions failed and
to active subsidiaries. Although the dollar amounts were not shown, our limited review of the
unclaimed property databases reported on the Internet for the states of Florida, New York, and
Rhode Island disclosed that 234 accounts belonged to subsidiaries. We were unable to determine



                                                  5
the dollar value of these accounts because the state databases did not disclose them. Information
on these 234 accounts is as follows:

     •   43 accounts remained unclaimed belonging to a subsidiary that was dissolved before its
         parent financial institution failed,

     •   139 accounts remained unclaimed belonging to a sold subsidiary (the accounts may have
         been sold along with the subsidiary or may still belong to the FDIC), and

     •   52 accounts remained unclaimed belonging to 20 dissolved subsidiaries.

We also noted that active subsidiaries held assets but could not find documentation relating to the
disposition of those subsidiaries or assets. Specifically, we identified 10 active subsidiaries that
belonged to Goldome Bank, an FDIC receivership. In November 1991, approximately 6 months
after Goldome failed, 9 of the 10 Goldome subsidiaries had assets worth $44 million. The FDIC’s
office at South Brunswick, New Jersey, contracted with Niagara Portfolio Management
Corporation to manage and dissolve those subsidiaries. Niagara’s business plan called for selling
those subsidiaries, which were computer equipment leasing and financial corporations. However,
we did not find any sale documentation for the subsidiaries or the assets or evidence of asset
searches. Moreover, as of July 1999, the states of incorporation showed no change in the
incorporation status of those subsidiaries since 1988—3 years before Goldome failed.

The remaining Goldome subsidiary that we identified was Goldome Foundation—a charitable
organization set up by Goldome. The only information that we found related to that subsidiary was a
March 1998 e-mail from the NESC’s Collateral Department to the head of the NESC’s Subsidiary
Department, which stated that the Collateral Department had located 150 shares of Eastman Kodak
stock registered in the name of Goldome Foundation. At that time, the stock had not been booked as
an asset. In November 1999, the NESC’s Subsidiary Department identified a legal representative of
the Goldome Foundation and transferred the stock to that individual.


CONCLUSIONS AND RECOMMENDATIONS

The NESC’s inventory of subsidiaries belonging to FDIC-established receiverships for its
geographic area of responsibility was not complete. Furthermore, we could not determine
whether the NESC always performed asset searches for subsidiaries. Failure to perform asset
searches could result in the loss of FDIC assets. Without a complete inventory of subsidiaries, the
NESC could fail to properly manage and dispose of them. The fact that information was available
in other FDIC divisions, which would have made the DRR’s system of record for subsidiaries
more accurate, also suggests a coordination problem among the FDIC divisions. We believe that
a complete inventory of subsidiaries is important because the NESC is scheduled to close June 30,
2000, and transfer its remaining work to the Dallas Office. Much of the institutional knowledge
related to the NESC’s subsidiaries will be lost in that transfer. Accordingly, the OIG recommends
that the Regional Director, NESC, take the following actions:




                                                 6
     (1) Include in the SIMAN system the 429 subsidiaries identified during our audit
         (160 identified by the NESC but not added to SIMAN plus 269 identified by the OIG).

     (2) Perform asset searches for the 731 subsidiaries identified during our audit (429 not
         included in SIMAN and 302 that the NESC added to SIMAN).

     (3) Coordinate with DOF’s Field Finance Center, Bank Account Control Unit, in Dallas,
         Texas, to identify and recover unclaimed accounts being held by states’ unclaimed
         property offices that belong to subsidiaries of FDIC receiverships managed by the
         NESC.

     (4) Coordinate with DOF and the Legal Division to maintain a complete inventory of NESC
         subsidiaries to be transferred to the Dallas Office.


CORPORATION COMMENTS AND OIG EVALUATION

On December 17, 1999, the Regional Director, NESC, provided a written response to a draft of
this report. Because the response did not provide the requisites for management decisions, as
defined in the Inspector General Act, we held additional discussions with NESC staff who were
involved in managing the subsidiary program and assisted the Regional Director in preparing his
written response. Office of Internal Control Management, NESC, and OIG representatives
attended a January 18, 2000, meeting at the NESC and DRR headquarters representatives in
Washington, D.C., participated via teleconference. The Regional Director then provided a revised
response to the draft report, which we received on January 31, 2000. Although the Regional
Director’s revised response did not specifically state whether he agreed or disagreed with any of
the recommendations, based on the text of his comments, we concluded that he generally
disagreed with recommendation 1 but has taken some corrective action on recommendations 2, 3
and 4.

The Regional Director's response is presented as appendix I to this report. A summary of the
Regional Director's revised response to draft recommendations 1, 2, 3, and 4 and our analysis
follows.


Include in the SIMAN system the 429 subsidiaries identified by our audit
(recommendation 1): The Regional Director agreed that the 429 subsidiaries identified in our
report were not included in SIMAN; however, he did not believe that there was adequate business
justification to add them to the system. The Regional Director stated that the 731 subsidiaries
mentioned in our report (302 identified by the NESC and added to SIMAN during the course of our
audit plus 429 identified by our audit) were resolved before the FDIC adopted SIMAN on April 9,
1996. He added that based on the cost of the conversion, the quality of the data, and the very
limited use of the data, there is no business justification to add previously resolved subsidiaries to
SIMAN. In addition, the Regional Director commented that the NESC has an accurate inventory of
“active” subsidiaries for its geographic area of responsibility. He said that an April 9, 1996,
memorandum entitled "Initial Loading of FDIC Entities into the Subsidiary Information Management


                                                 7
Network (SIMAN)" required that all “active” subsidiaries be converted to SIMAN by May 31,
1996, and the NESC met that requirement.

Although the Regional Director contended that the April 9, 1996, memorandum required the
conversion by May 31, 1996, of all “active” subsidiaries, the memorandum used the word
“unresolved” as opposed to the word “active.” The memorandum stated:

       “All general information for corporations, trust, associations, joint ventures
       and partnerships should be loaded individually for all unresolved Subsidiary
       and JVP entities in this phase of the project."

Further, the Regional Director’s response did not mention that the April 9, 1996, directive was
revised by a June 16, 1997, memorandum from the Deputy Director, Asset Management Branch.
The June 16, 1997, guidance required that service center personnel enter current information into
each required SIMAN field for all unresolved entities. The memo further described unresolved
entities as falling in four different status groups:

     (1) Active—the entity is not operating, but has lower tier entities that are operating.

     (2) Inactive—the entity is not operating, but is not ready to be placed in the dissolution
         process.

     (3) Operating—the entity is conducting business and has employees.

     (4) Dissolution-in-Process—at least one of the resolved criteria (final tax returns filed;
         disposition status reached; entities books closed—zero book value on receivership
         ledger) has been met.

Accordingly, based on the April 9, 1996, and June 16, 1997, memorandums, SIMAN should
contain information on all unresolved entities instead of just “active” subsidiaries as stated by the
Regional Director. Furthermore, we believe that as the FDIC’s system of record for subsidiaries,
SIMAN should contain information on all subsidiaries both resolved and unresolved.

The Regional Director stated that when the FDIC adopted the SIMAN system, a business
decision was made to only convert existing unresolved subsidiaries and not add historical records
to SIMAN. However, the April 9, 1996, and June 16, 1997, memorandums were not clear that
only unresolved subsidiaries should be added to SIMAN. In fact, the June 16, 1997,
memorandum refers to a June 2, 1997, SIMAN User Group meeting, which recommended that
“ . . . 44 data elements be required for subsidiaries not yet resolved and 3 data elements for
dissolved entities.” We held discussions with responsible NESC officials throughout our audit.
During those discussions, the restrictive decision regarding not adding historical records to
SIMAN that the Regional Director cited in his response never came up. In fact, as previously
stated, the NESC added 302 previously dissolved subsidiaries to SIMAN during the course of our
audit, which generally came from the same receiverships as the 429 that we identified. The NESC
added those 302 subsidiaries because of its SIMAN Project. In a February 23, 1999, e-mail to the



                                                  8
OIG, the NESC’s Assistant Regional Manager, Subsidiaries Unit, explained the SIMAN Project
as follows:

       “The purpose was to establish the ‘universe’ of hopefully all ‘FDIC’ subs
       under the control of Westborough, Franklin, South Brunswick and COMB
       Contractors. In other words having all FDIC subs like what already exists
       for the RTC subs. . . . Unlike active subs where we populate 46 data fields
       these assets only had about 10 to 12 fields populated, just to establish them
       as a reference point and their ultimate status, e.g. dissolved. Obviously the
       data base already contained all of the original Hartford subs. . . . Actually
       those who will benefit most from this effort is Dallas when we consolidate
       into them next year.”

During our January 18, 2000, meeting, NESC officials stated that a policy exception was obtained
from DRR headquarters that permitted the addition of the 302 previously resolved subsidiaries.
Moreover, the Regional Director’s response stated that the policy exception allowed the NESC
“to input only 14 of the 46 required fields.” However, the officials could provide only e-mails
between staff regarding how to add the subsidiaries as opposed to any written evidence of a
policy exception that authorized the 302 subsidiaries to be added or limited them to 14 data fields
in the process. On January 31, 2000, a DRR Assistant Director issued a memorandum (see
appendix II) clarifying the June 16, 1997, memorandum as follows:

       “ . . . 44 data elements should have been loaded for all active/unresolved
       (Unresolved) entities that FDIC had in its inventory as of April 9, 1996.
       After these entities had been resolved there are 3 data elements that must be
       loaded to complete the recording of the resolution process.”

Further, we disagree with the Regional Director’s assertion that the 731 subsidiaries were all
resolved before the FDIC adopted the SIMAN tracking system on April 9, 1996. We identified
62 subsidiaries not included in SIMAN that were involuntarily dissolved by the states, at least
13 of which were dissolved in August 1998, more than 2 years after FDIC adopted the SIMAN
system. This contradicts the Regional Director’s assertion that the NESC met the requirements
for loading all “active” subsidiaries by May 31, 1996, and that all of the 731 subsidiaries
discussed in our report were resolved prior to the FDIC’s adoption of SIMAN. Furthermore, the
Regional Director stated that on or around November 22, 1999, the Legal Division conducted a
review of the 38 subsidiaries that our report identified as active but not included in SIMAN. He
said that the review found that four of the subsidiaries were sold and merged into Fleet Bank
during the resolution of the Bank of New England. He added that

       “ . . . it would appear (emphasis added) that 30 entities had been purchased by others and
       are being maintained by them or were merged into entities not owned by the FDIC.
       Information on the remaining 4 entities was not readily available . . . through normal
       sources.”




                                                 9
The Regional Director’s response indicates that the NESC is not sure about the status of 34 of the
38 entities and does not provide information regarding whether the 34 entities were resolved or
active as of April 9, 1996.

The Regional Director concluded that the NESC has not seen any material benefit from having
added the 302 subsidiaries to SIMAN and, therefore, it is neither productive nor cost effective to
now add the 429 subsidiaries that we identified. However, the Regional Director provided a list
of the 429 subsidiaries to the Dallas Office for historic reference. We disagree with the Regional
Director’s belief that there is no material benefit to be gained from adding the subsidiaries to
SIMAN. SIMAN is also used for recording the final tax return dates for dissolved subsidiaries.
Based on an ongoing audit of final tax returns for the NESC’s dissolved subsidiaries, we could
not find approximately 30 percent of the final federal and state tax returns for the NESC
subsidiaries shown in SIMAN. If final tax returns have not been filed for dissolved subsidiaries
included in SIMAN, the likelihood of tax returns not being filed for dissolved subsidiaries not
included in SIMAN is even greater. Adding the 429 subsidiaries identified in this report to
SIMAN would provide a better basis for tracking and ensuring that final tax returns have been
prepared for all dissolved subsidiaries. We have provided to DOF a listing of the 429 subsidiaries
in an ongoing audit of Final Tax Returns for NESC Dissolved Subsidiaries and plan to
recommend that the Division of Finance research whether final tax returns have been filed for
these subsidiaries.

Although the Regional Director’s response contained the requisites for a management decision,
we continue to believe that a system of record—which SIMAN has been designated—should
include all entities that it is designed to track. Accordingly, we disagree with the Regional
Director’s management decision.

Perform asset searches for the 731 subsidiaries identified during our audit (429 identified
by our audit and 302 identified by the NESC) (recommendation 2): The Regional Director
stated that it has been DRR policy to perform asset and liability searches as part of the subsidiary
management responsibilities and part of the dissolution process. In addition, he said that there are
several other interdivisional checkpoints between DOF, DRR, and the Legal Division to ensure
that all assets are properly recorded on the books and records of the subsidiary and receivership.
He added that DOF is responsible for the accounting records of an individual subsidiary and
receivership and is involved in the process of preparing final tax returns, as well as upstreaming
any remaining assets. He concluded that those interdivisional controls, in conjunction with the
asset searches that should have been performed in accordance with DRR policy, would preclude
almost any instance whereby the FDIC abandoned a particular subsidiary asset. For that reason,
the Regional Director concluded that it would not be cost effective or productive to duplicate
asset searches for those 731 resolved subsidiaries. He added that asset and liability searches
would only detect matters/assets that are of public record such as real estate, mortgages, tax liens,
judgments, and lawsuits. He also stated that third party searches would not detect ownership of
stocks, bonds, or other negotiable instruments. The Regional Director said that, notwithstanding
the above, the NESC ordered asset and liability searches of a sample of 36 of the 302 subsidiaries
that the NESC added to SIMAN. He said that the results of the searches identified one judgment
of $14,380 obtained on August 31, 1995, by one of the subsidiaries that was dissolved on
October 30, 1995. The Regional Director reported that additional research is needed to


                                                 10
determine whether the judgment is collectible. In addition, the Regional Director reported that
the NESC ordered new asset and liability searches for 62 of the subsidiaries that we identified that
were involuntarily dissolved, but no assets were found.

Although the Regional Director asserted that it has been DRR’s policy to perform asset and
liability searches, we could not find any evidence of those searches in the files. If the evidence of
those searches had been maintained, the additional efforts required to perform the 98 searches
(36 plus 62) cited would not have been necessary. The Regional Director's comment that asset
searches will not detect ownership of stocks, bonds, and other negotiable instruments is not
accurate. Many holders of cash, bonds, and other negotiable instruments are required to turn
those assets over to states’ unclaimed property agencies if not claimed by the owners within
established timeframes. In fact, we searched the Internet for unclaimed property in the states of
Florida, New York, and Rhode Island and found over 230 unclaimed accounts belonging to 22 of
the subsidiaries identified in our report. Recommendation number 3 for the NESC to coordinate
with DOF's Bank Account Control Unit in the Dallas Office was directly related to this issue.
Although the Regional Director's response contained the requisites for a management decision,
we continue to believe that evidence of asset searches should be available to provide assurance
that all assets have been identified. Furthermore, we believe that asset searches should include
searching for unclaimed assets held by states’ unclaimed property agencies. Accordingly, we
disagree with the Regional Director’s management decision.

Coordinate with DOF’s Field Finance Center, Bank Account Control Unit in Dallas, Texas,
to identify and recover unclaimed accounts being held by states unclaimed property offices
that belong to subsidiaries of FDIC receiverships managed by the NESC
(recommendation 3): The Regional Director responded that the NESC forwarded the OIG’s list
of unclaimed accounts to the Bank Account Control Unit (BACU), which has been actively
pursuing this type of potential recovery for the past several years. The Regional Director stated
that in August 1999, a formal Memorandum of Understanding (MOU) was executed between
DRR and DOF to ensure that all receivership and subsidiary claims would be properly handled
with the appropriate authority in place. The Regional Director added that as a matter of interest,
BACU has already acted on the OIG’s list that the NESC forwarded to BACU on November 18,
1999. He said that BACU has already filed over 1,500 claims in Florida and is preparing to file
950 additional claims in New York State.

The Regional Director's response implies that BACU had identified unclaimed accounts for the
subsidiaries identified in this report and was in the process of filing claims for them. We have
                                                                                       7
been working closely with BACU on a previous OIG audit of unclaimed property. The MOU
mentioned in the Regional Director's response was in response to that audit. We issued a
management letter to DRR and DOF on February 9, 1999, and a final audit report on August 27,
1999, which recommended that DOF be assigned the responsibility for identifying and recovering
unclaimed accounts and that DRR discontinue paying finders fees to third parties for identifying
those accounts. The MOU was signed in September 1999, shortly after our report was issued. In
addition, we provided the receiverships and subsidiaries databases that BACU was using in its

7
 Report entitled Audit of Abandoned Assets Held by States’ Unclaimed Property Agencies (audit report number A99-038
dated August 27, 1999.


                                                        11
asset searches. We created the subsidiary database provided to BACU from SIMAN, and that
database did not include any of the 429 subsidiaries identified in this report as not being in
SIMAN. Along with the databases, we provided BACU lists of 1,638 unclaimed accounts in
Florida, 2,307 accounts in California, and over 700 accounts in New York.

With respect to the Regional Director’s statement that BACU has been pursuing that type of
recovery for several years, BACU has for years kept track of known bank accounts and recovered
funds from various entities such as law firms and title companies. However, as mentioned in our
prior report, BACU is relatively new at searching for unclaimed property held by states’
unclaimed property agencies. For example, as of March 1999, BACU reported that it had
recovered $25,000 from the state of Maryland. Before that, most of the state-held unclaimed
funds had been recovered through DRR's finders fee program, which generally paid fees to private
investigators who identified and reported the unclaimed accounts for a percentage of the funds
collected.

The Regional Director stated that the NESC sent a list of the unclaimed bank accounts discussed
in this report to BACU on November 18, 1999, and that BACU reported that it had already
identified many of those accounts. However, on January 14, 2000, we requested the most current
database of subsidiaries that BACU was using and compared it with the listing of 731 subsidiaries
discussed in this report. Of the 731 subsidiaries, 401 (55 percent) were not on the January 14,
2000, BACU database. After we discussed this issue with NESC officials at the January 18,
2000, meeting, the NESC again forwarded a list of the 731 subsidiaries to BACU for inclusion in
the database. The Regional Director’s response contained the requisites for a management
decision.

Coordinate with DOF and the Legal Division to maintain an accurate inventory of NESC
subsidiaries to be transferred to the Dallas Office (recommendation 4): The Regional
Director responded that for several years, the NESC's Subsidiary Department has distributed a
monthly report to the Legal Division and DOF reflecting the current and year-to-date inventory of
all subsidiaries and the current status of each entity. He added that those reports ensure that there
is a consistent focus toward meeting DRR priority resolutions and serve as a check to other areas
relative to their understanding of current inventory. He said that the NESC intends to continue
this practice until all NESC subsidiaries have been dissolved or consolidated into the Dallas
Office. The Regional Director said that on January 14, 2000, the NESC submitted a list of the
731 subsidiaries discussed in our report to DRR and DOF in the Dallas Office. We believe that
the Regional Director’s action meets the requirements for a management decision.

The Regional Director also commented on table 1 of our draft report. His response indicates a
general misunderstanding of the purpose of the table. Although we acknowledge in our report
that each of the lists had different purposes, the Regional Director incorrectly assumed that we
were trying to reconcile the various subsidiary lists from DOF, DRR, and Legal. This was not the
case. As stated on page 3 of the report: “We merged the three inventories to obtain a
consolidated list of 2,294 unduplicated subsidiaries that became the basis for our analysis.”
Although we orally explained this again during our January 18, 2000, meeting, the Regional
Director still explained in his revised response why the different lists do not reconcile. The fact
that the lists do not reconcile is irrelevant to determining the total number of unduplicated


                                                 12
subsidiaries on the different lists. We used the lists to identify subsidiaries that were not included
in SIMAN but were known to the different FDIC divisions at the NESC. As stated in the report,
of the 429 subsidiaries not included in SIMAN, “ . . . 218 were included on DOF’s and/or the
Legal Division’s subsidiaries inventories.”

Appendix III presents management's proposed action on our recommendations and shows that there is
a management decision for each recommendation in this report.




                                                  13
                                                                                                   APPENDIX I



Federal Deposit Insurance Corporation
101 East River Drive, P.O. Box 280402, East Hartford, CT 06128   Division of Resolutions and Receiverships


                                                                      January 31, 2000

   TO:                  Carl S. Mays, Regional Director
                        Office of Audits
                        Office of the Inspector General


   FROM:                Jon Karlson, Regional Director
                        Division of Resolutions and Receiverships
                        Northeast Service Center

   SUBJECT:             Response to OIG Draft Report on the Audit of the Northeast Service
                        Center's Subsidiaries Inventory, Audit Number 98-108

   With regard to the subject draft report dated November 8, 1999 we are responding to
   your recommendations, as follows:

   1) The NESC does, indeed, have an accurate and complete record of active subsidiaries
      for its geographic area of responsibility. It should be noted that the 731 subsidiaries
      mentioned in the OIG Draft Audit Report (OIG Report) were all resolved prior to the
      FDIC adopting the SIMAN tracking system.            SIMAN was an RTC subsidiary
      tracking system that was adopted by the FDIC on April 9, 1996, as a result of the Best
      Practices review. The directive entitled, “Initial Loading of FDIC Entities into the
      Subsidiary Information Management Network (SIMAN)” required that all active
      subsidiaries be converted to SIMAN by May 31, 1996.              The NESC met this
      requirement.

        When the SIMAN system was adopted, a business decision was made to only convert
        existing unresolved subsidiaries. The business decision specifically chose not to
        recreate historical records which in some cases go back to the mid 1980’s. We feel
        that our existing policy and practices ensure that all assets are accounted for and that
        no material weakness or loss has resulted from the decision to only convert active
        subsidiaries to the SIMAN system. We have substantially reviewed all of the specific
        instances cited in the OIG Report. The results to date have found no instance that
        would lead us to conclude that DRR should convert all previously resolved
        subsidiaries.

        The NESC and DRR’s Washington Office concurred that based on the cost of
        conversion, the quality of the data, and the very limited value of this data, there was no
        business justification to add those previously resolved subsidiaries to SIMAN.




                                                    14
   There were, however, 302 resolved subsidiaries that were included in the total of 731
   previously resolved subsidiaries that were added to SIMAN. This action was
   approved by the Washington Office as an exception to policy and was included in
   SIMAN because of what was deemed to be the NESC staff’s familiarity with these
   records. The policy exception allowed this office to input only 14 of the 46 required
   fields. We concur that the OIG has correctly noted that the remaining 429 are not
   included in the SIMAN inventory. For historic reference, on January, 14,2000, we
   provided the Dallas office a copy of the list of the 429 subsidiaries that had been
   resolved prior to the implementation of SIMAN as the FDIC system of record. To
   date NESC has not seen any material benefit from having added to SIMAN the
   aforementioned 302 subsidiaries, therefore it is neither productive nor cost effective to
   now add the previously resolved 429 subsidiaries.

2) We believe that asset searches were performed on previously resolved subsidiaries. It
   has been FDIC DRR policy to perform asset and liability searches as part of the
   subsidiary management responsibilities and part of the dissolution process. In addition,
   there are several other interdivisional checkpoints between DOF, DRR and the Legal
   Division to ensure that all assets are properly recorded on the books and records of
   the subsidiary and receivership. As an example, the legal division is asked to provide
   a dissolution opinion on each subsidiary. As part of the Legal Services request, DRR
   must inform the Legal Division if there are any remaining assets so that a proper
   distribution to other potential creditors can be determined. Under DRR policy this
   would have required an asset search to be performed.

   The OIG Report states that an NESC official said that asset searches were not always
   needed. While not commenting on the statement, we reviewed current and past
   editions of the DRR Asset Manual. Longstanding DRR policy going back to the
   December 31, 1991, (revised) asset manual (copy attached) states that asset searches
   are required to be obtained prior to dissolution of a subsidiary. We are confident that
   this policy was adhered to with few exceptions and therefore can not support the cost
   of reordering the asset searches.

   Notwithstanding the above, we have performed a sampling of the 302 subsidiaries
   mentioned in the OIG Report. In this regard we ordered a random sampling of 36
   asset and liability searches from the 302 previously resolved subsidiaries mentioned in
   the OIG Report. The results of the test indicated only one possible exception involving
   Leasemart Inc. a subsidiary dissolved on 10/30/95. It would appear that the subsidiary
   obtained a judgement on 8/13/92 in the amount of $14,380 representing the residual
   balance from a 1987-leased automobile that had been repossessed and sold. In as
   much as the parent financial institution went into receivership in 12/91 and the
   subsidiary handle by a third party contractor we will need to do further research on
   this 8 year old $14,000 subsidiary to determine whether or not it is collectible.




                                            15
In addition, the OIG report identifies 62 of the 429 as having been involuntarily
dissolved. Our review of these subsidiaries included ordering new asset and liability
searches on the 62 in the states of their incorporation only with the results being that
no assets were found.

Also, DOF is responsible for the accounting records of an individual subsidiary and
receivership and is involved in the process of preparing final tax returns as well as
upstreaming any remaining assets. These interdivisional controls, in conjunction with
the asset searches that would have been performed in accordance with DRR policy,
would preclude almost any instance whereby the FDIC abandoned a particular
subsidiary asset.      For these reasons it was deemed not to be cost effective or
productive to duplicate asset searches on these 731 resolved subsidiaries. Particularly
in light of the fact that, as illustrated by the attached chart, fully 99.9% of the 429
subsidiaries are from institutions closed prior to 1993.

It should be noted that asset and liability searches will only detect matters/assets which
are of public record, e.g., ORE, Mortgages, Tax Liens, Judgements, Lawsuits, etc.
Third party searches will not detect ownership of stocks, bonds or other negotiable
instruments. In its report the OIG mentioned several specific asset related findings and
we would provide the following information:

•   On or around November 22, 1999, Legal conducted a preliminary review of the
    38 corporations noted in the OIG Report (page 8) as "active", from the list of the
    429 that were not placed on the SIMAN system. This review found that four of
    the active subsidiaries were sold and merged into FLEET Bank during the
    resolution of Bank of New England. In addition, it would appear that 30 entities
    had been purchased by others and are being maintained by them or were merged
    into entities not owned by the FDIC. Information on the remaining 4 entities was
    not readily available to us through normal sources. We have written directly to the
    states of incorporation for further information. Based on what we have learned
    from our review of the 34 we do not expect any findings when our
    correspondence to the states of incorporation are responded to.

•   Page ten identifies several Goldome entities, with combined net worth's of $44
    million, still showing as active in their state of incorporation, and that no
    disposition records were located relative to Niagara Asset Management's (COMB
    Contractor) sale of these corporations. We agree that that the records supporting
    the disposition of these subsidiaries could not be located. As part of the Legal
    divisions review process they identified that eight of nine Goldome entities are part
    of that group that appears to be managed and annual reports being filed by third
    parties outside of the FDIC. Neither Legal nor DRR could find any information
    about the current status of the one remaining entity (Jersey Computer and
    Financial Corp.). We can only conclude form this information that Niagara’s
    disposition plans had actually been implemented and the subsidiaries sold or
    otherwise transferred to others.



                                         16
Note: Information on       •   Page nine and ten of the OIG Report points to real estate assets owned by an entity
     VSB                       known as VSB Investments, a subsidiary of Vanguard Savings Bank, which closed
     Investments was
                               in March 1992. Attached to this response are copies of the VSB Investments
     removed from
     the report.               dissolution case dated July 21, 1993 and Business plan dated March 11, 1993.
                               What occurred is that DRR obtained authority to dissolve the subsidiary on August
                               30, 1993, and the accounting entries which reflected the upstream of remaining real
                               estate assets did not occur until later. This is not unusual as the case request for
                               dissolution, approval from the appropriate state authority, and accounting entries are
                               three separate events that do not necessarily occur at the same time. These were not
                               discovered assets as indicated in the OIG Report (see OIG footnote #4). The OIG
                               Report seems to criticize an appropriate business transaction.

                          •    The OIG Report also refers to an entity known as Goldome Foundation, and 150
                               shares of Eastman Kodak stock in the name of the entity (page 10). We concur
                               with the comments and the ultimate disposition as described.

                       3) On November 18, 1999, we requested, and received, from your staff auditor the listing
                          of possible unclaimed bank accounts as outlined on page nine of the OIG Report.
                          However, neither the NESC nor the OIG could determine the amounts involved in
                          these accounts, as ownership has to be documented fully before such information can
                          be divulged. On the same date we referred the listing to DOF Field Finance Center,
                          Bank Account Control Unit (BACU) for the proper pursuit and resolution (Copy of
                          communication attached). The BACU has been actively pursuing this type of
                          potential recovery for the past several years. In August 1999, a formal Memorandum
                          of Understanding was executed between DRR and DOF to ensure that all
                          Receivership and Subsidiary claims would be properly handled with the appropriate
                          authority in place. As a matter of interest, the above mentioned listings that were sent
                          on November 18, 1999 have already been responded to. BACU has already filed over
                          1,500 claims in Florida and are preparing to file additional 950 claims in New York
                          State. These claims cover both Receiverships and Subsidiaries. The NESC – DRR on
                          January 14,2000 submitted a copy of the complete list of 731 to Dallas – DOF and
                          DRR.

                       4) For several years the NESC Subsidiary Department has distributed a monthly
                          Report to Legal and DOF reflecting the current and year to date, inventory of all
                          subsidiaries. The report also reflects the current status of each entity. These reports
                          support the needs of these divisions and provide a consistent focus toward meeting
                          DRR priority resolutions. It also serves as a check to the other areas relative to their
                          understanding of current inventory. We intend to continue this practice until all NESC
                          subsidiaries have been dissolved or consolidated into the Dallas Office. We see no
                          functional reason to do anymore then what is currently being done at this point.

                          The chart on page four of the OIG Report shows subsidiary inventory totals from
                          DRR, DOF and Legal. This needs to be clarified as follows:




                                                                   17
                             •    DRR’s Subsidiary Inventory as of February 25, 1999, consisted of all entities
                                  (resolved and unresolved) from the FDIC and RTC’s closed offices mentioned
                                  in the OIG Report on page three. DOF’s Subsidiary Inventory dated April 30,
                                  1994, does not include the RTC Subsidiaries. DOF did not include RTC
                                  Subsidiaries in its inventory until January 1996. It should also be noted that not
                                  all of the subsidiaries and partnerships in DRR’s inventory have financial
                                  statements. In some cases (for Partnerships and Non Wholly Owned
                                  Subsidiaries) we do not have the responsibilities of handling the financials.
                                  Therefore, these entities will not be in DOF’s inventory but have been included
                                  in DRR’s Subsidiary Inventory.

                             •    Page one of the OIG Report states that you reviewed the inventory consisting
                                  of subsidiaries of failed institutions as well as partnerships and joint ventures in
                                  which those subsidiaries had an ownership interest. It should be noted that
                                  NESC’s Legal Subsidiary Report dated April 20, 1999, does not include
                                  partnerships or joint ventures. The Legal Division’s report only tracks those
                                  items relative to active and resolved corporate entities. On a monthly basis,
                                  DRR receives a copy of the Legal report and distributes it to the appropriate
                                  account officer. Due to the fact that not all subsidiaries are corporations, the
                                  Legal and DRR lists will not reconcile. It should also be noted that NESC’s
                                  Legal Division inherited the FDIC and RTC’s closing offices legal inventory. If
                                  these cases had been closed and the subsidiaries had been resolved, they would
                                  not have been included on Legal’s list.

Note: Attachments are   Attachments
     not included in
     this report.
                        cc: Vijay G. Deshpande, Director, OICM - w/o attachments
                            Giovanni G. Recchia, Associate Director, Internal Review, DRR - w/o attachments
                            Joe Palladino, Regional Manager - w/o attachments
                            Jerry Dano, Assistant Regional Manager, Subsidiaries - w/o attachments
                            Patricia Selensky, Internal Review - w attachments
                            File




                                                                    18
                                                                                APPENDIX II



Federal Deposit Insurance Corporation
550 Seventeenth Street, N.W.
Washington, DC 20429                                     Division of Resolutions and Receiverships


                                             January 31, 2000

   MEMORANDUM

   TO:             Assistant Managing Directors, Subsidiary Management
                   Assistant Regional Managers, Subsidiary Management


   FROM:           Richard H. Fischman, Assistant Director
                   Asset Management Branch

   SUBJECT:        Subsidiary Information Management Network (SIMAN) Data
                   Maintenance Requirements Clarification

   PURPOSE:

   To clarify the previous SIMAN loading requirements as stated in the memorandum
   entitled “Subsidiary Information Management Network (SIMAN) Data Maintenance
   Requirements “dated June 16, 1997. (See Attachment # 1):

   CLARIFICATION:

   As stated in the overview section on the attached memorandum (See Attachment #1),
   the User Group convened on 6/2/97 to identify data elements necessary for reporting
   progress in resolving each subsidiary and related legal entity (Entities). The group
   recommended that 44 data elements be required for entities not yet dissolved/resolved
   (Resolved) and 3 data elements for resolved entities.

   To clarify the above statement, 44 data elements should have been loaded for all
   active/unresolved (Unresolved) entities that FDIC had in its inventory as of April 9,
   1996. After these entities had been resolved there are 3 data elements that must be
   loaded to complete the recording of the resolution process.

   The original memorandum did not state that previously resolved FDIC entities were to
   be loaded into SIMAN. This fact was also included in the Best Practice Program and
   noted in the FDIC/RTC Transition Task Force’s report to Committee on Banking and
   Financial Services, U.S House of Representatives and Committee on Banking
   Housing, and Urban Affairs U.S. Senate, dated June 30, 1995. Loading all of FDIC’s
   previously resolved entities into SIMAN would not be cost effective and very time
   consuming.




                                        19
                       If you have any questions regarding this memorandum please contact James E. Davis
                       at (202) 898-6648 or Shawn J. Scott (202) 898-6681.

Note: Attachment is    Attachment
     not included in
     this report.      cc:    Program Managers, Subsidiary Management
                              James E. Davis
                              James E. Crum
                              Robert Manning
                              Pauline Hildebrandt
                              Alan Levy
                              Shawn J. Scott
                              SIMAN User Group




                                                              20
                                                                                                                                 APPENDIX III

                                         MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report on the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider the FDIC’s responses as management decisions in accordance with the act and related guidance,
several conditions are necessary. First, the response must describe for each recommendation
     •   the specific corrective actions already taken, if applicable;
     •   corrective actions to be taken together with the expected completion dates for their implementation; and
     •   documentation that will confirm completion of corrective actions.
If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for
any disagreement. In the case of questioned costs, the amount that the FDIC plans to disallow must be included in management’s response.
If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.
This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The
information for management decisions is based on management's written response to our report.

                                                                                    Expected     Documentation That                Management
   Rec.                                                                            Completion    Will Confirm Final   Monetary      Decision:
  Number               Corrective Action: Taken or Planned / Status                   Date             Action         Benefits      Yes or No
         1     The Regional Director agreed that the 429 subsidiaries               01/31/00    Regional Director’s     $-0-            Yes
               identified in our report were not included in SIMAN—the                          response.
               FDIC’s system of record for subsidiaries. However, he did
               not believe that there was adequate business justification for
               adding the 429 subsidiaries to SIMAN.
         2     Although the NESC could not provide copies of the asset              01/31/00    Regional Director’s     $-0-            Yes
               searches, the Regional Director stated that the NESC stands                      response.
               by its assertions that it has been DRR policy to perform asset
               searches as part of the subsidiary management and dissolution
               process. The Regional Director concluded that because of
               interdivisional controls, in conjunction with asset searches that
               should have been performed in accordance with DRR policy,
               he could not support reordering asset searches. The Regional
               Director reported that, notwithstanding


                                                                             21
                                                                             Expected     Documentation That              Management
 Rec.                                                                       Completion    Will Confirm Final   Monetary    Decision:
Number           Corrective Action: Taken or Planned / Status                  Date             Action         Benefits    Yes or No
   2      the above, the NESC ordered new asset and liability searches
          for a random sampling of 36 of the 302 subsidiaries identified
(cont’d.)
          by the NESC and found a $14,380 judgment obtained by one
          of the subsidiaries, which required further research to
          determine whether it is collectible. The Regional Director also
          reported that the NESC ordered new asset searches in the
          states of incorporation for the 62 involuntarily dissolved
          subsidiaries included in the 429 that we identified, but no
          assets were found.
   3      The Regional Director stated that on January 14, 2000, the         01/14/00    Regional Director’s     $-0-        Yes
          NESC submitted a list of the 731 subsidiaries discussed in our                 response.
          report to both DOF and DRR in the Dallas Office.
   4      The Regional Director stated that the NESC distributes a           01/31/00    Regional Director’s     $-0-        Yes
          monthly report to the Legal Division and DOF reflecting the                    response.
          current and year-to-date inventory of all subsidiaries and the
          status of each entity. He said that the NESC intends to
          continue this practice until all NESC subsidiaries have been
          dissolved or consolidated into the Dallas Office.




                                                                      22
